No. 19-1337

31n The

antpreme Court of the Eittiteb iptatel;

TODD PHILLIPPI,
Petitioner,
V.

HUMBLE DESIGN, L.L.C.

AND WARREN DAVID HUMBLE,
Respondents.

On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit
SUPPLEMENTAL BRIEF OF PETITIONER

Todd Phillippi
Petitioner pro se
411 North 8th Street
Midlothian, TX 76065
Tel: 214-497-8935
Fax: 972-775-2950
toddphillippi@yahoo.corn
LANTAGNE LEGAL PRINTING
801 East Main Street Suite 100 Richmond, Virginia 23219 (800) 847-0477

1
This Supplemental Brief is submitted pursuant
to Supreme Court Rule 15.8.
The related and underlying matter of
Automation Support, Inc. D.B.A. Technical Support
v Humble Design, LLC. And David Warren Humble,
Northern District of Texas, Dallas Division, Cause
No.: 3: 14-CV-4455-BK is on appeal in the Fifth
Circuit Court of Appeals, CASE NO. 20-10386.
The pending Appeal is with regard to the
same issues submitted in the Petition for Certioari:
Whether the District Court and Fifth
Circuit Court of Appeals have created an exception
to 28 USC 636 (c) by holding that a FRCP 60(b)
"Legal Representative" is bound by the consent of
the dismissed parties after a FRCP 41(a)(1)(A)(ii)
agreed dismissal
Whether the District Court and Fifth
Circuit Court of Appeals have created an exception
to Buckhannon Bd. & Care Home, Inc. v. W. Va.
Dep't of Health & Human Res., 532 U.S. 598, 601,
121 S.Ct. 1835, 149 L.Ed.2d 855 (2001) by holding
that when a FRCP 41(a)(1)(A)(ii) is "With Prejudice"
it confers "Prevailing Party" status despite there
being no "Judicial imprimatur".
Whether the Fifth Circuit Court of
Appeals is in conflict with all other Federal Court of
Appeals (including its own precedent) regarding the
loss of jurisdiction of the District Court immediately
upon the filing of a FRCP41(a)(1)(A)(ii) dismissal
without a Court Order

2
It is submitted that the Supreme Court of the
United States should consider referring this matter
back to the Fifth Circuit Court of Appeals, CASE
NO. 20-10386, for consideration of the above
questions presented and the exceptions created by
the Fifth Circuit Court of Appeals to Supreme Court
precedent.
Respectfully submitted,
Todd Phillippi
Petitioner pro se
411 North 8th Street
Midlothian, TX 76065
Tel: 214-497-8935
Fax: 972-775-2950
toddphillippi@yahoo.com

